No.

IN THE
SUPREME COURT OF THE UNITED STATES
LEONARDO GARCIA MORALES,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
For the Eleventh Circuit
PETITION FOR WRIT OF CERTIORARI

Richard C. Klugh
40 N.W. 3rd Street, PH 1
Miami, Florida 33128
Tel. 305-536-1191
rklugh@klughlaw.com
Counsel for Petitioner

QUESTION PRESENTED
Does the right to presence at critical stages of a criminal trial extend to
proceedings before the jury in which the district court discourages the jury from
pursuing its request during deliberations to rehear the testimony of the accused?

i

INTERESTED PARTIES
The caption contains the names of all of the parties interested in the
proceedings.

ii

TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
INTERESTED PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
PETITION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OPINION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
APPENDIX
Decision of the Court of Appeals for the Eleventh Circuit, United
States v. Leonardo Garcia Morales, No. 19-11653, 846 Fed.Appx.
872 (Feb. 25, 2021) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 1
Judgment imposing sentence, United States District Court, S.D. Fla.,
United States v. Garcia Morales, No. 17-cr-20701-MGC (May 15,
2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 16

iii

TABLE OF AUTHORITIES
CASES:
Crosby v. United States, 113 S.Ct. 748 (1993) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
In Re: Progressive Games, Inc., No. 561, 1999 WL 187639 (D.C. Cir. 1999) . . 10
McKaskle v. Wiggins, 465 U.S. 168 (1984) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Snyder v. Massachusetts, 291 U.S. 97 (1938) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
United States v. Gallo, 763 F.3d 1504 (6th Cir. 1984) . . . . . . . . . . . . . . . . . . . . . 10
United States v. Garner, 581 F.2d 481 (5th Cir. 1978) . . . . . . . . . . . . . . . . . . . . . 10
United States v. Gypsum Company, 438 U.S. 422 (1978) . . . . . . . . . . . . . . . . . . . . 9
United States v. Mezzanatto, 115 S.Ct. 797 (1995) . . . . . . . . . . . . . . . . . . . . . . . . . 9
United States v. Zielie, 734 F.2d 1447 (11th Cir. 1984) . . . . . . . . . . . . . . . . . . . . . 8
Veillon v. Exploration Services, 876 F.2d 1197 (5th Cir. 1989) . . . . . . . . . . . . . . 10
STATUTORY AND OTHER AUTHORITY:
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1,
18 U.S.C. § 1951 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
21 U.S.C. § 841 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
21 U.S.C. § 846 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
28 U.S.C. § 753(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 10
Fed. R. Crim. P. 43 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2,

iv

PETITION FOR WRIT OF CERTIORARI
Leonardo Garcia Morales respectfully petitions the Supreme Court of the
United States for a writ of certiorari to review the decision of the United States Court
of Appeals for the Eleventh Circuit, entered in case number 19-11653 on February 25,
2021.
OPINION BELOW
A copy of the decision of the United States Court of Appeals for the Eleventh
Circuit, unpublished and available at 846 Fed.Appx. 872, is contained in the Appendix
(App. 1).
JURISDICTION
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1) and Part III
of the Rules of the Supreme Court of the United States. The Court of Appeals issued
its decision on February 25, 2021. App. 1–15. This petition is timely filed.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Petitioner relies upon the following constitutional and statutory provisions:
U.S. Const. amend. V (due process clause):
No person shall be ... deprived of life, liberty, or property, without due
process of law.
U.S. Const. amend. VI (due process clause):
No person shall be ... deprived of life, liberty, or property, without due
process of law.
1

28 U.S.C. 753(b)
(b) Each session of the court and every other proceeding designated by
rule or order of the court or by one of the judges shall be recorded
verbatim by shorthand, mechanical means, electronic sound recording,
or any other method, subject to regulations promulgated by the Judicial
Conference and subject to the discretion and approval of the judge. ...
Fed. R. Crim. P. 43:
(a) When Required. Unless this rule, Rule 5, or Rule 10 provides
otherwise, the defendant must be present at:
(1) the initial appearance, the initial arraignment, and the plea;
(2) every trial stage, including jury impanelment and the return of the
verdict; and
(3) sentencing.
(b) When Not Required. A defendant need not be present under any of the
following circumstances:
(1) Organizational Defendant. The defendant is an organization
represented by counsel who is present.
(2) Misdemeanor Offense. The offense is punishable by fine or by
imprisonment for not more than one year, or both, and with the
defendant’s written consent, the court permits arraignment, plea, trial,
and sentencing to occur by video teleconferencing or in the defendant’s
absence.
(3) Conference or Hearing on a Legal Question. The proceeding involves
only a conference or hearing on a question of law.
(4) Sentence Correction. The proceeding involves the correction or
reduction of sentence under Rule 35 or 18 U.S.C. § 3582(c).
(c) Waiving Continued Presence.
2

(1) In General. A defendant who was initially present at trial, or who had
pleaded guilty or nolo contendere, waives the right to be present under
the following circumstances:
(A) when the defendant is voluntarily absent after the trial has
begun, regardless of whether the court informed the defendant of
an obligation to remain during trial;
(B) in a noncapital case, when the defendant is voluntarily absent
during sentencing; or
(C) when the court warns the defendant that it will remove the
defendant from the courtroom for disruptive behavior, but the
defendant persists in conduct that justifies removal from the
courtroom.
(2) Waiver’s Effect. If the defendant waives the right to be present, the
trial may proceed to completion, including the verdict’s return and
sentencing, during the defendant’s absence.
STATEMENT OF THE CASE
Introduction
The district court, confronted with an unexpected action by the United States
Marshal’s Office to remove the quadriplegic petitioner from the courthouse during
trial, proceeded in petitioner’s absence to conduct proceedings on the deliberating
jury’s request to rehear specific testimony, including petitioner’s trial testimony in his
own behalf. The district court, along with counsel for the government and petitioner,
went to the jury room to meet with the jurors, upon the jury’s persistence in requesting

3

a transcript of petitioner’s testimony, so as to dissuade the jury from its request.1 The
jury then relented and withdrew its request and convicted petitioner of the principal
charges against him.
Course of Proceedings
Petitioner was prosecuted on a multi-count federal indictment returned in
Miami, Florida in October 2017. Petitioner was charged with conspiracy and attempt
to obstruct commerce by means of robbery, in violation of 18 U.S.C. § 1951(a), and
related charges of conspiracy and attempt to possess a controlled substance with intent
to distribute, in violation of 21 U.S.C. §§ 841 and 846. A 15-day jury trial was
conducted in half-day increments because of petitioner’s medical condition: petitioner
is a quadriplegic with impairment of various bodily functions.
At trial, the government presented evidence that in September 2012, several
persons attempted to break into a private residence used as a marijuana grow house
in Miramar, Florida. The home owner fired on the would-be robbers and soon
thereafter observed petitioner wounded at the scene. Petitioner’s DNA profile was
found on evidence recovered at the scene. One admitted participant in the attempted
robbery, Alfredo Hernandez, testified that he participated with petitioner in planning
the robbery and that he went with petitioner, in petitioner’s van, to the grow house

1

The proceedings before the jury at the jury room door were not transcribed.
App. 11–12.
4

where they then attempted to conduct a robbery. At the grow house, Hernandez heard
shots, took off running, got back in the van, and left, but saw that somebody was on
the ground. Hernandez did not see what happened to that person or know what had
occurred in relation to the gunfire.
Petitioner testified in his own behalf over the course of two days, denying any
intention to commit a drug robbery or the other charged offenses and explaining that
he was made a scapegoat by the actual participants in the crime who testified against
him; petitioner contended that as a helpless quadriplegic of whom the participants
were not afraid, he had been scapegoated by them to deflect their own responsibility
for the offenses. The government, on cross-examination, sought to challenge his
credibility, but petitioner maintained his innocence. In cross-examination, the
government suggested that petitioner’s defense of being in the wrong place at the
wrong time was untrue, but petitioner maintained his claim of innocence.
On the first full day of jury deliberations, when the district court observed that
petitioner was not in the courtroom and upon inquiry by defense counsel, the district
court noted that petitioner had been moved out of the courthouse by the Marshal’s
Office, but the trial court made no determination that any significant delay would have
resulted from simply bringing petitioner back into the courtroom. Instead, the district
court proceeded in petitioner’s absence, discussed with counsel for the parties issues
relating to the jury’s request for petitioner’s testimony and that of a government
5

witness, brought the jury into the courtroom (in the absence of petitioner) and
instructed the jury on the difficulty of producing transcripts. When the jury thereafter
sent another note, persisting in its transcript interest, the district court advised counsel
to follow him to the jury deliberation room, where the judge engaged the deliberating
jurors off the record regarding their request. The jurors relented and withdrew their
request for petitioner’s testimony. The proceedings at the jury room were not reported
and thus the specific content of the verbal communications is not known.
Following its deliberations, the jury convicted petitioner of conspiracy and
attempt to commit Hobbs Act robbery and conspiracy and attempt to possess a
controlled substance with intent to distribute. The district court imposed a sentence
of 84 months imprisonment.
On appeal, the Eleventh Circuit affirmed petitioner’s convictions, but remanded
for resentencing due to a guideline calculation error. App. 15.
Concerning petitioner’s claim of improper exclusion from trial, the Eleventh
Circuit described the facts as follows:
After deliberations began, and when Garcia Morales was not
present, the jury asked the district court whether it could get transcripts
of witness testimony, including Garcia Morales’s testimony. At first, the
district court said it would wait for Garcia Morales to be present to
address the question. But upon learning that Garcia Morales had been
returned to the facility where he was housed during the trial, the district
court decided to answer the transcript question given that it “doesn’t
really affect any substantive matter.” The district court then informed the
6

government and Garcia Morales’s counsel that it would explain to the
jurors that they could get a copy of the transcripts, but that “it is
time-consuming, [and] that they should rely on their own recollection,”
if they could. Garcia Morales’s counsel never objected to the district
court so advising the jury outside the presence of Garcia Morales.
The district court then told the jurors they should “rely on [their]
recollection of the testimony,” but that they could receive copies of the
transcripts if they so desired. The district court also explained that if the
jurors had seen that “the lawyers had some copies of the transcripts”
during closing arguments, “that’s because they ordered it” before then,
and it would still take some time to produce copies for the jury. This
prompted the jury to ask, “the attorneys have copies, so why can’t we get
them?” The attorneys explained to the district court that neither of them
had transcripts of witness testimony, only transcripts that had been
received in evidence. The district court then asked the attorneys to come
stand in the doorway of the jury room and repeat that explanation to the
jury, which they did. There is no record of what the attorneys said to the
jury at that time, and Garcia Morales was not present for this discussion.
The jury then withdrew its request to review a transcript of Garcia
Morales’s testimony but still asked to review the transcript of another
witness’s testimony.
App. 3–5.
The Eleventh Circuit, concluding that petitioner’s exclusion would be reviewed
solely for plain error, because the incomplete record showed no objection by defense
counsel, App. 10, found no basis for reversal:
[T]his Court has held that a district court did not violate a defendant’s
right to be present at every stage of the trial when the court, absent the
defendant and his counsel, responded to a jury’s request for a transcript
by noting that transcripts were not usually prepared during a trial and
7

that the jury should follow its recollection of the evidence. United States
v. Zielie, 734 F.2d 1447, 1460 (11th Cir. 1984) ... . In Zielie, this Court
held that the defendant showed no prejudice as a result of the district
court’s “purely ministerial” act. Id. In so ruling, we held that “when the
judge’s answer to the jury’s inquiry is distinctly responsive to the
question; clearly states the law; and no prejudice is shown,” any alleged
error is harmless. Id.
So too here. Even if Garcia Morales should have been present for
the district court’s response to the jury’s inquiry, he has not shown how
this affected his substantial rights. He has not explained what objection
he would have lodged or how his presence, in addition to that of his
counsel (who was present throughout this interaction) would have
changed anything. Garcia Morales suggests that the district court
somehow convinced the jury to withdraw its request for a transcript of
his testimony. But the district court never denied the jury access to any
transcript and there is no reason to think that Garcia Morales’s presence
would have convinced the jury they needed it.
App. 10–11.
REASONS FOR GRANTING THE PETITION
The circumstances of petitioner’s case are ideal for resolving the scope of the
ministerial act exception to the right of a defendant to be present for trial. Petitioner,
a quadriplegic who was in custody during the trial, was improperly excluded from a
critical stage of trial during which the district court, in repeated interaction with the
jury, caused the jury to withdraw its request to rehear petitioner’s trial
testimony—testimony that was petitioner’s entire defense to the charges.

8

The district court’s actions violated petitioner’s fundamental Fifth Amendment
rights. There is a risk of prejudice from direct substantive communications between
the judge and the jury. See United States v. Gypsum Company, 438 U.S. 422, 461
(1978); see id. at 462 (“While it is, of course, impossible to gauge what part the
disputed meeting played in the jury’s action of returning a verdict the following
morning, this swift resolution of the issues in the face of positive prior indications of
hopeless deadlock, at the very least, gives rise to serious questions in this regard.”).
A defendant’s right to presence and consultation with counsel regarding key
stages in the trial is also well established. See Snyder v. Massachusetts, 291 U.S. 97,
105–06 (1938) (due process violation of right to be present at all stages of trial, where
fundamental fairness might be thwarted by defendant’s absence; right is “to be present
in his own person whenever his presence has a relation, reasonably substantial, to the
fullness of his opportunity to defend against the charge”). A defendant’s right to be
present is waivable only under the specific conditions stated in Fed. R. Crim. P. 43.
See United States v. Mezzanatto, 115 S.Ct. 797, 801–02 (1995) (citing Crosby v.
United States, 113 S.Ct. 748 (1993)). Rule 43 provides that the defendant can waive
his right to be present, but does not provide that his counsel can waive that right in his
absence. And counsel made no such waiver, nor was counsel even invited to by the
district court, in this case. The right to appear before the jury at all-important stages

9

of the trial is a right that is designed “to affirm the accused’s individual dignity and
autonomy.” McKaskle v. Wiggins, 465 U.S. 168, 178 (1984).
The Court Reporters Act requires a court reporter to record “verbatim by
shorthand, mechanical means, electronic sound recording, or any other method . . . (1)
all proceedings in criminal cases had in open court....” 28 U.S.C. § 753(b). There is
no exception when the trial court moves the proceedings into the jury room to answer
a jury’s questions during deliberations. The responsibility to insure compliance with
the statute lies with the court, not the court reporter or the parties. See United States
v. Gallo, 763 F.3d 1504, 1530 (6th Cir. 1984); United States v. Garner, 581 F.2d 481,
488 (5th Cir. 1978). The requirements of 28 U.S.C. § 753(b), the Court Reporters
Act, “are mandatory not permissive.” Veillon v. Exploration Services, 876 F.2d 1197,
1200 (5th Cir. 1989); In Re: Progressive Games, Inc., 194 F.3d 1329, 1999 WL
187639 at *1 (D.C. Cir. 1999) (unpublished).
The apparent consequence of the district court’s conducting of a critical portion
of the trial in the absence of petitioner and in conducting a portion of the proceedings
off the record in the jury room during deliberations was to change the jury’s mind
about needing to rehear petitioner’s testimony. Shortly after the trial court concluded
the proceedings in the jury room, the jury’s request to hear petitioner’s testimony was

10

withdrawn, and the jury instead maintained only a desire to rehear the testimony of
a government witness.
The disabled petitioner was utterly dependent on the trial court to effectuate his
right of presence at, and consultation with counsel during, the jury trial, but he was
excluded from proceedings by the district court’s actions. And in the portion of the
proceedings conducted off the record—in the jury room itself—petitioner’s testimony
ended up excluded from the jury’s request. There was no consent or authorization by
petitioner or counsel for the actions by the district court. There is no reviewable
record of what occurred in the jury room with the judge and the jurors, but such a
proceeding is inherently improper and coercive.
The district court violated petitioner’s fundamental right to presence at a critical
stage of the case. Petitioner was available to be brought over to court, but was not
brought over to court; his counsel did not waive his presence, nor did petitioner. The
trial court’s decisions to exclude petitioner from the trial, to go into the jury
deliberation room, to confer with the jury regarding its requests, and to go off the
record for the critical improper interaction with the jury were clear and obvious errors.
Because there is no record of exactly what the district court told the jurors and how
the improper interaction influenced them to be dissuaded from interest in petitioner’s
testimony, the inference of prejudice is great.

11

The Eleventh Circuit’s expansion of a “ministerial act” exception to the right
of presence in this context allows the exception to swallow the rule. To bring
uniformity and procedural regularity to the enforcement of the right of presence at
trial, the Court should grant certiorari.
CONCLUSION
For the foregoing reasons, the Court should grant the petition.
Respectfully submitted,
RICHARD C. KLUGH, ESQ.
Counsel for Petitioner
Miami, Florida
July 2021

12

APPENDIX

USCA11 Case: 19-11653

Date Filed: 02/25/2021

Page: 1 of 15

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-11653
Non-Argument Calendar
________________________
D.C. Docket No. 1:17-cr-20701-MGC-5

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
LEONARDO MIGUEL GARCIA MORALES,
a.k.a. El Padrino,
a.k.a. El Taliban,
a.k.a. Miguelito,
Defendant-Appellant.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
(February 25, 2021)
Before WILSON, MARTIN, and ROSENBAUM, Circuit Judges.
PER CURIAM:
App. 1

USCA11 Case: 19-11653

Date Filed: 02/25/2021

Page: 2 of 15

Leonardo Miguel Garcia Morales appeals his conviction and sentence for
conspiracy to commit Hobbs Act robbery. He raises five arguments on appeal.
First, he argues the district court constructively amended the indictment in
violation of his Fifth and Sixth Amendment rights. Second, he says the district
court improperly conferred with the jury about their request for a transcript when
Garcia Morales was not present. Third, he argues that his sentence was
procedurally defective because the district court gave him a longer sentence on
account of conduct for which Garcia Morales was never convicted. Fourth, he says
the district court should have granted him a continuance to allow a neurologist to
testify at his sentencing. And finally, Garcia Morales says his 84-month sentence
is substantively unreasonable in light of his severe medical condition.
After careful review, we find that the district court did not amend the
indictment and that the district court’s communications with the jury do not
warrant a new trial. Therefore, we affirm Garcia Morales’s conviction. However,
we agree with Garcia Morales that his sentence is procedurally unreasonable
because the district court erred in including an offense of which he was acquitted
in its calculation of his offense level. We therefore vacate Garcia Morales’s
sentence and remand for further proceedings consistent with this opinion. Because
we vacate Garcia Morales’s sentence on this ground, we need not address the other
challenges he raised to his sentence.
2

App. 2

USCA11 Case: 19-11653

Date Filed: 02/25/2021

Page: 3 of 15

I.
In 2012, Garcia Morales participated in a plan to rob what he believed to be
a marijuana grow house. Instead, Garcia Morales was met by an armed
homeowner who shot him repeatedly, leaving him a quadriplegic. Garcia
Morales’s co-conspirators later robbed a gold courier, but due to his severe
injuries, Garcia Morales did not directly participate in that venture.
In 2017, a grand jury indicted Garcia Morales on a number of counts related
to the robberies and other conduct. As relevant to this appeal, Count 1 charged
conspiracy to commit Hobbs Act robberies for planning to steal from “persons
employed by businesses and companies operating in interstate commerce and
foreign commerce, and persons engaged in illegal interstate and foreign commerce,
namely, narcotics trafficking.”
The district court’s jury instructions explained that Count 1 charged Garcia
Morales with “two separate substantive crimes,” conspiring to rob a gold courier
and to rob a marijuana dealer. The district court further explained that the
government was required to prove that Garcia Morales committed only one of
those crimes but that the jury had to be unanimous as to “which of the two crimes”
he committed.
After deliberations began, and when Garcia Morales was not present, the
jury asked the district court whether it could get transcripts of witness testimony,
3

App. 3

USCA11 Case: 19-11653

Date Filed: 02/25/2021

Page: 4 of 15

including Garcia Morales’s testimony. At first, the district court said it would wait
for Garcia Morales to be present to address the question. But upon learning that
Garcia Morales had been returned to the facility where he was housed during the
trial, the district court decided to answer the transcript question given that it
“doesn’t really affect any substantive matter.” The district court then informed the
government and Garcia Morales’s counsel that it would explain to the jurors that
they could get a copy of the transcripts, but that “it is time-consuming, [and] that
they should rely on their own recollection,” if they could. Garcia Morales’s
counsel never objected to the district court so advising the jury outside the
presence of Garcia Morales.
The district court then told the jurors they should “rely on [their] recollection
of the testimony,” but that they could receive copies of the transcripts if they so
desired. The district court also explained that if the jurors had seen that “the
lawyers had some copies of the transcripts” during closing arguments, “that’s
because they ordered it” before then, and it would still take some time to produce
copies for the jury. This prompted the jury to ask, “the attorneys have copies, so
why can’t we get them?” The attorneys explained to the district court that neither
of them had transcripts of witness testimony, only transcripts that had been
received in evidence. The district court then asked the attorneys to come stand in
the doorway of the jury room and repeat that explanation to the jury, which they
4

App. 4

USCA11 Case: 19-11653

Date Filed: 02/25/2021

Page: 5 of 15

did. There is no record of what the attorneys said to the jury at that time, and
Garcia Morales was not present for this discussion. The jury then withdrew its
request to review a transcript of Garcia Morales’s testimony but still asked to
review the transcript of another witness’s testimony.
The jury found Garcia Morales guilty on Count 1 of conspiracy to commit
the marijuana robbery, but not the gold courier robbery. Garcia Morales’s
Presentence Investigation Report (“PSR”) determined that because Count 1
charged “conspiracy to commit more than one offense,” Sentencing Guideline §
1B1.2(d) required that the charge be treated “as if the defendant had been
convicted on a separate count of conspiracy for each offense that the defendant
conspired to commit.” The PSR recommended a total offense level of 29,
including one unit attributed to the gold courier robbery.
Garcia Morales objected to the computation of the offense level because “it
includes points for acquitted conduct,” namely the gold courier robbery. The
district court overruled that objection, finding “by a preponderance” that Garcia
Morales assisted in the planning of and shared in the proceeds from the gold
courier robbery. The district court then noted that it was “probably going to depart
downward for some of the categories, such as his medical condition and such, as
him not being overtly involved,” and suggested that “in the end it’s probably going

5

App. 5

USCA11 Case: 19-11653

Date Filed: 02/25/2021

Page: 6 of 15

to balance out.” The district court sentenced Garcia Morales to 84 months’
imprisonment on all counts.
Garcia Morales timely appealed.
II.
A.
Garcia Morales argues that the district court constructively amended the
indictment when it instructed the jury that it needed to find him guilty of
conspiring to commit only one of either the gold courier or marijuana robberies.
Garcia Morales points out that Count 1 charges him with conspiring to rob
“persons employed by businesses and companies operating in interstate commerce
and foreign commerce, and persons engaged in illegal interstate and foreign
commerce.” And he insists that the district court was not entitled to amend the
indictment to change the “and” to an “or.”
We review de novo whether the district court constructively amended the
indictment. United States v. Sammour, 816 F.3d 1328, 1335 (11th Cir. 2016).1
The Fifth Amendment guarantees that a defendant can only be convicted of crimes
charged in his indictment. United States v. Holt, 777 F.3d 1234, 1261 (11th Cir.

1

The government argues that this alleged error is unreviewable because Garcia Morales invited
it or, in the alternative, that it should be reviewed only for plain error because he failed to object
to the instruction at the charging conference. But we need not decide which level of review
applies here, because Garcia Morales’s constructive amendment claim fails even when reviewed
de novo. See infra pp. 6–9.
6

App. 6

USCA11 Case: 19-11653

Date Filed: 02/25/2021

Page: 7 of 15

2015). An indictment is constructively amended, and violates that right, when “the
essential elements of the offense contained in the indictment are altered to broaden
the possible bases for conviction beyond what [was] contained in the indictment.”
Id. (quotation marks omitted). But there is a difference between the elements and
the objects of a crime. It is well-settled that “where an indictment charges in the
conjunctive several means of violating a statute, a conviction may be obtained on
proof of only one of the means, and accordingly the jury instruction may properly
be framed in the disjunctive.” United States v. Simpson, 228 F.3d 1294, 1300
(11th Cir. 2000).
Here, it is clear that Count 1 charged a single, multi-object conspiracy. The
elements of conspiracy to commit Hobbs Act robbery are: (1) there was an
agreement between two or more people, including the defendant, to commit a
Hobbs Act robbery; (2) the defendant knew about the conspiratorial goal; and
(3) the defendant voluntarily participated in furthering that goal. Brown v. United
States, 942 F.3d 1069, 1075 (11th Cir. 2019) (per curiam). Garcia Morales was
charged with violating the Hobbs Act by conspiring to steal from legal and illegal
enterprises. In other words, Garcia Morales was charged with participating in a
single conspiracy that had more than one goal, including the marijuana robbery and
the gold courier robbery. This means the government needed to prove that he was
aware of and participated in furthering at least one of those goals, but not
7

App. 7

USCA11 Case: 19-11653

Date Filed: 02/25/2021

Page: 8 of 15

necessarily both. See Simpson, 228 F.3d at 1300. The district court properly
instructed the jury about how to evaluate the evidence as to whether Garcia
Morales participated in a single, multi-object conspiracy.
Garcia Morales first argues that the district court improperly instructed the
jury as if he had been charged with multiple conspiracies when he was charged
with a single conspiracy. But no one disputes that Count 1 charged Garcia Morales
with a single conspiracy. Garcia Morales’s repeated insistence that Count 1
“clearly charges a single conspiracy” does not help him in the face of a charge for
a single conspiracy with multiple objects.
Garcia Morales places great weight on the fact that the government did not
charge him for robbing the gold courier or aiding and abetting in that robbery. He
says it is reasonable to infer from that decision that “the grand jury did not charge
[him] in Count 1 as a co-conspirator in the gold courier robbery as a stand-alone
conspiracy.” But it is not uncommon for a defendant to be charged with
conspiracy to commit a crime without being charged with the substantive offense.
See Ocasio v. United States, 578 U.S. __, 136 S. Ct. 1423, 1430 (2016) (“[A]
conspirator may be convicted even though he was incapable of committing the
substantive offense himself.” (quotation marks omitted)). And again, Garcia
Morales was not charged with conspiring to commit the gold courier robbery as a

8

App. 8

USCA11 Case: 19-11653

Date Filed: 02/25/2021

Page: 9 of 15

stand-alone conspiracy. He was charged with participating in a single, overarching conspiracy with two objects.
Garcia Morales also points to the fact that there was insufficient evidence of
his knowledge and planning of the gold courier robbery. But this merely explains
the jury’s verdict regarding that object of the conspiracy. It does not tell us that the
grand jury intended to charge him with participating in both, and necessarily both,
goals of that single conspiracy. Indeed, the fact that there was considerably more
evidence about Garcia Morales’s participation in one object of the conspiracy than
the other suggests quite the opposite.
Garcia Morales was charged with a single, multi-object conspiracy. The
district court was therefore correct in instructing the jury that the government
needed to prove Garcia Morales participated in only one object of the conspiracy.
It did not constructively amend the indictment by doing so.
B.
Garcia Morales next argues that the district court improperly excluded him
from a critical stage of the trial when it discussed the jury’s request for trial
transcripts without him present and answered one of the jury’s questions off the
record. He argues that this violated his Fifth and Sixth Amendment Rights,
Federal Rule of Criminal Procedure 43, and the Court Reporters Act (“CRA”). He
points out that after the off-the-record discussion, the jury withdrew their request
9

App. 9

USCA11 Case: 19-11653

Date Filed: 02/25/2021

Page: 10 of 15

for a transcript of his testimony, and says that neither he nor his counsel ever
consented to the district court’s decision to have these discussions without Garcia
Morales present.
As an initial matter, because Garcia Morales raised this claim for the first
time on appeal, we review the constitutionality of the district court’s actions for
plain error. United States v. Mosquera, 886 F.3d 1032, 1043 (11th Cir. 2018). To
succeed on plain error review, a defendant must show “error that is plain; that
affects substantial rights; and that seriously affects the fairness, integrity, or public
reputation of judicial proceedings.” Holt, 777 F.3d at 1261 (quotation marks
omitted).
A criminal defendant has the “right to be present at any stage of the criminal
proceeding that is critical to its outcome if his presence would contribute to the
fairness of the procedure.” Kentucky v. Stincer, 482 U.S. 730, 745, 107 S. Ct.
2658, 2667 (1987). But this Court has held that a district court did not violate a
defendant’s right to be present at every stage of the trial when the court, absent the
defendant and his counsel, responded to a jury’s request for a transcript by noting
that transcripts were not usually prepared during a trial and that the jury should
follow its recollection of the evidence. United States v. Zielie, 734 F.2d 1447,
1460 (11th Cir. 1984), abrogated in part on other grounds by Bourjaily v. United
States, 483 U.S. 171, 107 S. Ct. 2775 (1987), as recognized in United States v.
10

App. 10

USCA11 Case: 19-11653

Date Filed: 02/25/2021

Page: 11 of 15

Chestang, 849 F.2d 528 (11th Cir. 1988). In Zielie, this Court held that the
defendant showed no prejudice as a result of the district court’s “purely
ministerial” act. Id. In so ruling, we held that “when the judge’s answer to the
jury’s inquiry is distinctly responsive to the question; clearly states the law; and no
prejudice is shown,” any alleged error is harmless. Id.
So too here. Even if Garcia Morales should have been present for the
district court’s response to the jury’s inquiry, he has not shown how this affected
his substantial rights. He has not explained what objection he would have lodged
or how his presence, in addition to that of his counsel (who was present throughout
this interaction) would have changed anything. Garcia Morales suggests that the
district court somehow convinced the jury to withdraw its request for a transcript
of his testimony. But the district court never denied the jury access to any
transcript and there is no reason to think that Garcia Morales’s presence would
have convinced the jury they needed it.2
Garcia Morales also claims that the district court violated the CRA when the
court responded, outside the deliberation room and off the record, to the jury’s
question about why the jurors could not have transcripts if the attorneys had them.
2

As we review the alleged violation of Federal Rule of Criminal Procedure 43 for harmlessness,
the same analysis applies. That rule requires that the defendant be present at “every trial stage,
including jury impanelment and the return of the verdict.” Fed. R. Crim. P. 43(a)(2). To the
extent the district court’s actions here technically violated the rule, Garcia Morales has failed to
show how he was harmed by the violation.
11

App. 11

USCA11 Case: 19-11653

Date Filed: 02/25/2021

Page: 12 of 15

The CRA requires a reporter to record verbatim all proceedings held in open court
in criminal cases. See United States v. Cashwell, 950 F.2d 699, 703 (11th Cir.
1992) (quoting 28 U.S.C. § 753(b)). But not every “failure to record, however
small or insignificant, will work a reversal.” United States v. Selva, 559 F.2d
1303, 1306 n.5 (5th Cir. 1977).3 Typically, reversal is warranted in cases with
“substantial or significant omissions,” such as when the record is missing voir dire,
opening statements, government or defense closing argument, or the entire
transcript. See id.
Here, there was no substantial or significant omission from the record. The
interaction with the jury was very brief, was in the presence of Garcia Morales’s
trial counsel, the district court and counsel gave accurate information in response
to the jury’s question, and the court first put into the record what it was going to
have the attorneys tell the jury. See United States v. Stefan, 784 F.2d 1093, 1102
(11th Cir. 1986) (holding that the omission of a one hour and forty-five minute
bench conference, in such a “long and complex case,” was not a substantial or
significant omission). And as we review this claim for harmlessness, see United
States v. Sweat, 555 F.3d 1364, 1367 (11th Cir. 2009) (per curiam), Garcia

3

In Bonner v. City of Prichard, 661 F.2d 1206 (11th Cir. 1981) (en banc), we adopted as binding
precedent all decisions of the former Fifth Circuit handed down before October 1, 1981. Id. at
1209.
12

App. 12

USCA11 Case: 19-11653

Date Filed: 02/25/2021

Page: 13 of 15

Morales has again failed to show how he was harmed by any technical violation of
the CRA.
C.
Finally, Garcia Morales argues that his sentence is procedurally
unreasonable because his offense level calculation improperly included the gold
courier robbery. The government concedes that the district court erred in
calculating Garcia Morales’s offense level by treating the gold courier robbery as a
separate group under Guideline § 1B1.2(d). Nevertheless, the government insists
that any error was harmless because the district court stated that it was departing
downward one level due to Garcia Morales’s limited role in the gold courier
robbery.
We agree with the government’s concession that the district court erred in
treating the gold courier robbery as a separate group under United States
Sentencing Guideline § 1B1.2(d). That Guideline states that a “conviction on a
count charging conspiracy to commit more than one offense shall be treated as if
the defendant had been convicted on a separate count of conspiracy for each
offense that the defendant conspired to commit.” USSG § 1B1.2(d). The
commentary clarifies that the conviction itself has to establish that the defendant
committed each relevant offense. USSG § 1B1.2(d) cmt. n.3. Here, the jury
acquitted Garcia Morales of conspiring to commit the gold courier robbery. Thus
13

App. 13

USCA11 Case: 19-11653

Date Filed: 02/25/2021

Page: 14 of 15

the district court was not entitled to treat the gold courier robbery as a separate
offense under this guideline.
We conclude this error was not harmless. “An error in the district court’s
calculation of the Sentencing Guidelines range warrants vacating the sentence,
unless the error is harmless.” United States v. Barner, 572 F.3d 1239, 1247 (11th
Cir. 2009). An error is harmless only where “a district judge clearly states that he
would impose the same sentence, even if he erred in calculating the guidelines.”
Id. at 1248 (emphasis added). The fact that the district court varied downward
from the guidelines range is not sufficient to demonstrate harmless error. See
United States v. Eason, 953 F.3d 1184, 1195 n.8 (11th Cir. 2020) (finding that a
Guidelines calculation error was not harmless where the district court never “stated
on the record that the enhancement made no difference to the sentence it imposed.”
(quotation marks omitted) (alterations adopted)).
Here, the district court’s statements were not clear enough to assure us that it
would have imposed the same sentence regardless of its calculation error. The
district court stated that it would “probably” depart downward due to a
combination of Garcia Morales’s medical condition and “him not being overtly
involved.” These equivocal statements, suggesting that both Garcia Morales’s
medical condition as well as his limited role in the gold courier robbery contributed
to the downward departure, provide only the weakest of assurance that the error
14

App. 14

USCA11 Case: 19-11653

Date Filed: 02/25/2021

Page: 15 of 15

was harmless. Because the district court erred in calculating Garcia Morales’s
Guidelines range and never clearly stated that it would impose the same sentence
regardless of that error, we conclude that his sentence is procedurally
unreasonable. See Barner, 572 F.3d at 1248.
AFFIRMED in part, VACATED in part, and REMANDED for further
proceedings consistent with this opinion.

15

App. 15

App. 16

App. 17

App. 18

App. 19

App. 20

App. 21

